HHS/OIG, Audit -"Audit of Administrative Costs Claimed Under Parts A&B of the Health Insurance for the Aged
and Disabled Programs,"(A-05-03-00096)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Administrative Costs Claimed Under Parts A & B of the Health Insurance for the Aged and Disabled Programs," (A-05-03-00096)
August 25, 2004
Complete
Text of Report is available in PDF format (155 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
During the period covered by our audit, pension costs claimed on the FACPs were overstated by $4,595,563
because AdminaStar did not fund its pension plan with cash contributions.  In addition, executive salary increases
claimed on the FACPs of $405,035 were excessive because salary increases awarded to selected AdminaStar and Anthem executives
exceeded the average increases for comparable positions established by the Employment Cost Index (ECI).  We are recommending
financial adjustment of both amounts.